audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs
  Grant for Drug Court Improvement and Enhancement to the
Fourth Judicial Circuit Court, Jacksonville, Florida
GR-40-99-016
September 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 96-DC-MX-0004 awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Fourth Judicial Circuit Court of Florida (grantee).  The grantee received an initial grant of $779,721 to improve and expand services offered by the drug court program in Jacksonville, Florida.  The grant project period was September 1, 1996 through September 30, 1998.  The grantee received a supplemental grant of $198,898 to continue the drug court program through June 30, 1999.   

	In brief, the grantee properly charged costs to the grant and implemented the grant objectives.  However, our audit determined the grantee:

Did not submit timely and accurate Financial Status Reports to OJP.
	
	Did not maintain supporting documentation to show it provided $266,000 in matching funds under the initial grant.

These items are discussed in detail in the Findings and Recommendations
section of the report.  Our scope and methodology appear in Appendix II.